July 13, 2012


TO:             Peter Budetti
                Deputy Administrator and Director
                Center for Program Integrity
                Centers for Medicare & Medicaid Services

                Deborah Taylor
                Director and Chief Financial Officer
                Office of Financial Management
                Centers for Medicare & Medicaid Services


FROM:           /Brian P. Ritchie/
                Assistant Inspector General for the
                  Centers for Medicare & Medicaid Audits


SUBJECT:        Medicare Compliance Review of Singing River Hospital for
                Calendar Years 2008 Through 2010 (A-04-11-03069)


Attached, for your information, is an advance copy of our final report on our most recent hospital
compliance review. We will issue this report to Singing River Hospital within 5 business days.

This report is part of a series of the Office of Inspector General’s hospital compliance initiative,
designed to review multiple issues concurrently at individual hospitals. These reviews of
Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750, or
through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-11-03069.


Attachment


cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs
       Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
July 18, 2012

Report Number: A-04-11-03069

Mr. Chris Anderson
Chief Executive Officer
Singing River Health System
2101 Highway 90
Gautier, MS 39553

Dear Mr. Anderson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Singing River Hospital for
Calendar Years 2008 Through 2010. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John T. Drake, Audit Manager, at (404) 562-7755 or through email at
John.Drake@oig.hhs.gov. Please refer to report number A-04-11-03069 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Chris Anderson

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     MEDICARE COMPLIANCE
REVIEW OF SINGING RIVER HOSPITAL
      FOR CALENDAR YEARS
       2008 THROUGH 2010




                        Daniel R. Levinson
                         Inspector General

                            July 2012
                          A-04-11-03069
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the ambulatory payment classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Singing River Hospital (the Hospital) is a 435-bed hospital located in Pascagoula, Mississippi.
According to CMS’s National Claims History data, Medicare paid the Hospital approximately
$277 million for 23,407 inpatient and 209,417 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2008, 2009, and 2010.

Our audit covered $3,409,995 in Medicare payments to the Hospital for 100 inpatient and 269
outpatient claims that we identified as potentially at risk for billing errors. These 369 claims had
dates of service in CYs 2008, 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 177 of the 369 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
selected inpatient and outpatient claims. Specifically, 192 claims had billing errors that resulted



                                                 i
in overpayments totaling $515,651 for CYs 2008, 2009, and 2010. Overpayments occurred
primarily because the Hospital did not have adequate controls to prevent incorrect billing of
Medicare claims and did not fully understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $515,651, consisting of $121,289 in overpayments for
       31 incorrectly billed inpatient claims and $394,362 in overpayments for 161 incorrectly
       billed outpatient claims and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

SINGING RIVER HEALTH SYSTEM COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital generally disagreed with our first
recommendation and did not specifically comment on our second recommendation. However,
the Hospital said it implemented several measures to strengthen its processes and controls to
reduce the risk of similar errors recurring in the future. The Hospital also provided additional
documentation that it believed would show that two of its medical device claims were not
overpaid. Based on our review of the additional documentation, we revised our findings and
recommendations accordingly. The Hospital’s comments are included in their entirety as the
Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
            Hospital Inpatient Prospective Payment System .........................................................1
            Hospital Outpatient Prospective Payment System .......................................................1
            Hospital Payments at Risk for Incorrect Billing ..........................................................2
            Medicare Requirements for Hospital Claims and Payments .......................................2
            Singing River Hospital .................................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3
            Objective ......................................................................................................................3
            Scope ............................................................................................................................3
            Methodology ................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................5

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ................................5
             Inpatient Short Stays ....................................................................................................5
             Inpatient Manufacturer Credit for Replaced Medical Devices ....................................5

          BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ............................6
             Outpatient Billing for Lupron Injections .....................................................................6
             Outpatient Manufacturer Credit for Replaced Medical Devices .................................7

          RECOMMENDATIONS ...................................................................................................8

          SINGING RIVER HEALTH SYSTEM COMMENTS AND OFFICE OF
            INSPECTOR GENERAL RESPONSE ..........................................................................8
              Billing Errors Associated With Inpatient Claims ........................................................8
              Billing Errors Associated With Outpatient Claims ....................................................9

APPENDIX

          SINGING RIVER HEALTH SYSTEM COMMENTS




                                                                      iii
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors 1 to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC). This transition occurred between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever is applicable.

2
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                          1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient short stays,

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims for blood clotting factor drugs,

    •   outpatient claims billed for Lupron injections,

    •   outpatient evaluation and management services,

    •   outpatient claims billed during an inpatient stay,

    •   outpatient surgeries billed with units greater than one, and

    •   outpatient claims billed with Modifier -59.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.


                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Singing River Hospital

Singing River Hospital (the Hospital) is a 435-bed hospital located in Pascagoula, Mississippi.
According to CMS’s National Claims History data, the Hospital received approximately $277
million for inpatient and outpatient services provided to Medicare beneficiaries during calendar
years (CY) 2008, 2009, and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $3,409,995 in Medicare payments to the Hospital for 369 claims that we
judgmentally selected as potentially at risk for billing errors. These 369 claims had dates of
service in CYs 2008 through 2010 and consisted of 100 inpatient and 269 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims the Hospital submitted for Medicare reimbursement.

We conducted our fieldwork at the Hospital during July and August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2008, 2009, and 2010;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 369 claims (100 inpatient and 269 outpatient) for
       detailed review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation the Hospital provided to
       support the sampled claims;

   •   reviewed the remittance advices the Hospital provided to determine the charges
       reimbursed by Medicare;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   utilized Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed and/or coded claims with the Hospital personnel to
       determine the underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with the Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 4
                              FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 177 of the 369 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 192 claims, resulting in overpayments totaling $515,651
for CYs 2008 through 2010. Specifically, 31 inpatient claims had billing errors, resulting in
overpayments totaling $121,289, and 161 outpatient claims had billing errors, resulting in
overpayments totaling $394,362. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements.

Only risk areas with errors are listed in the findings and recommendations section.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 31 of 100 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $121,289.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

Section 1833(e) of the Act precludes payment to any provider of services or other person
without information necessary to determine the amount due the provider.

For 30 of the 34 sampled claims for inpatient short stays, the Hospital incorrectly billed
Medicare Part A for beneficiary stays that it should have billed as either “outpatient” or
“outpatient with observation” services. Pinnacle Business Solutions (Pinnacle), the Hospital’s
MAC, reviewed each of the 30 claims for medical necessity. For 29 claims, Pinnacle determined
from a review of the patients’ medical records that the inpatient admission was not medically
necessary and the patient could have been treated in a less intensive setting. For one claim, the
medical record documentation had conflicting information and the admission date was unclear.
As a result of these errors, the Hospital received overpayments totaling $120,789. 4

Inpatient Manufacturer Credit for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,


4
 The Hospital may bill Medicare Part B for a limited range of services related to some of these incorrect Medicare
Part A short-stay claims. We were unable to determine the effect that billing Medicare Part B would have on the
overpayment amount because these services had not been billed or adjudicated by the MAC prior to the issuance of
our report.


                                                         5
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device.

Billing Requirements for Medical Device Credits

The Manual, chapter 3, section 100.8, states that to bill correctly for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition codes 49 or 50, along with value code “FD.”

For 1 of the 42 sampled claims for replaced medical devices, the Hospital did not comply with
Medicare requirements. Specifically, the Hospital received a reportable credit for a replaced
device but did not report the proper value and condition code on its claim. The Hospital stated
that the overpayments occurred because it lacked the knowledge and controls to report the
appropriate billing codes. As a result of this, the Hospital received an overpayment totaling
$500.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 161 of 269 sampled outpatient claims. These errors
resulted in overpayments totaling $394,362.

Outpatient Billing for Lupron Injections

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Leuprolide acetate (Lupron) is a drug commonly used to treat hormone-dependent cancers. The
U.S. Food and Drug Administration (FDA) approved different dosages of Lupron for the
treatment of different diagnoses. During our audit period, the 3.75 mg dosage of Lupron,
HCPCS code J1950, was FDA-approved for the treatment of disorders relating to the uterus. In
addition, the FDA approved the 7.5 mg dosage of Lupron, HCPCS code J9217, solely for the
treatment of advanced prostatic cancer. The billing code for the smaller dosage of Lupron has a
higher Medicare reimbursement rate than the billing code for the larger dosage.

For all of the 160 sampled claims for Lupron injections, the Hospital incorrectly billed HCPCS
code J1950. Specifically, of the 160 claims sampled, the Hospital billed 154 of these claims
using a multiple of J1950 for the use of the 3.75 mg dosage of Lupron, although the 7.5mg
dosage was administered. For the remaining six claims, the Hospital made other billing errors
associated with the number of units billed for J1950.

The Hospital stated that it was unaware of the proper use of HCPCS code J1950 because no
relevant CMS or Pinnacle guidance instructed them on how to bill. Thus the Hospital disagreed
with our determination.


                                                   6
As a result of these errors, the Hospital received overpayments totaling $390,276.

Outpatient Manufacturer Credit for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Billing Requirements for Medical Device Credits

The Manual and CMS guidance in Transmittal 1103, dated November 3, 2006, explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to use the modifier “FB” and reduce
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

Prudent Buyer Principle

Federal regulations (42 CFR § 413.9) state: “All payments to providers of services must be
based on the reasonable cost of services .…” The prudent buyer principle, is defined in CMS’s
Provider Reimbursement Manual, part 1, section 2102.1, and states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and costs conscious buyer pays for a given
       item or service. If costs are determined to exceed the level that such buyers incur,
       in the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that CMS expects Medicare
providers to pursue free replacements or reduced charges under warranties. Section 2103(C)(4)
provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits or payments available under the terms of the warranty
       covering the replaced equipment. The credits or payments that could have been
       obtained must be reflected as a reduction of the cost of the equipment supplied.

For 2 of the 29 sampled claims for replaced medical devices, the Hospital did not comply with
Medicare requirements. For the first claim, the Hospital received a reportable credit for a
replaced medical device but did not report the appropriate “FB” modifier or reduced charges on
its claim. However, during the course of our audit, the Hospital resubmitted this claim with the
correct modifier and the Medicare contractor adjusted the Hospital’s claim. For the second
claim, the Hospital did not obtain a credit that was available under the terms of the
                                                   7
manufacturer’s warranty. The Hospital stated that these overpayments occurred because it
lacked the knowledge and controls to report the appropriate modifiers, and it relied on the device
manufacturers to issue device credits. As a result of not obtaining a credit that was available
under the terms of the manufacturer’s warranty, the Hospital received an overpayment totaling
$4,086.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $515,651, consisting of $121,289 in overpayments for
       31 incorrectly billed inpatient claims and $394,362 in overpayments for 161 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare billing requirements.

SINGING RIVER HEALTH SYSTEM COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Hospital generally disagreed with our first
recommendation and did not specifically comment on our second recommendation. However,
the Hospital said it implemented several measures to strengthen its processes and controls to
reduce the risk of similar errors recurring in the future. The Hospital’s comments are included in
their entirety as the Appendix.

In regards to our first recommendation, the Hospital said that the majority of claims that we
identified as erroneous were billed in accordance with published guidelines in effect during the
service dates of the claims.

Billing Errors Associated With Inpatient Claims

Hospital Comments – Inpatient Short Stays

The Hospital disagreed with the results of Pinnacle’s medical necessity review for inpatient
short-stay claims. The Hospital said that, during its utilization review process, it had procedures
in place to review the status of admissions based on guidance it received from Interqual and
Executive Health Resources. The Hospital also stated that the physician is ultimately responsible
for deciding the admission status of a patient.

Office of Inspector General Response – Inpatient Short Stays

The Hospital did not provide any additional information that would cause us to change our
recommendation. Based on Pinnacle’s medical review of the 30 claims, we continue to
recommend that the Hospital refund to the Medicare contractor $120,789 for these 30 claims.




                                                8
Hospital Comments – Inpatient Manufacturer Credit for Replaced Medical Devices

For one of the two inpatient manufacturer credit for replaced medical device claims, the Hospital
stated that it did not bill for the replaced device. Therefore, the Hospital did not include the
“FD” value code, did not receive reimbursement for the replacement device, and did not receive
an overpayment. For the second claim, the Hospital summarized the medical situation that
resulted in the replacement of the device and provided the original device implantation date. The
Hospital stated that, according to the warranty information provided by Biotronick, the replaced
device was no longer under warranty and a credit was not available. The Hospital stated that it
had procedures in place to report credits and was strengthening these procedures.

Office of Inspector General Response – Inpatient Manufacturer Credit for Replaced Medical
Devices

Under IPPS, inpatient claims are reimbursed through the DRG payment mechanism. Because
the DRG bundles the cost of the device within the payment, the Hospital did receive
reimbursement. For the first claim, we continue to recommend that the Hospital resubmit the
claim using the “FD” value code.

For the second claim, the Hospital provided additional information that showed the claim was
allowable. Accordingly, we revised the report and excluded this claim from our findings.

Billing Errors Associated With Outpatient Claims

Hospital Comments – Outpatient Billing for Lupron Injections

The Hospital said that our finding concerning its outpatient billing for Lupron injections was not
factually based on clear documentation in the medical record and that its “physicians did not use
Lupron off-label.” The Hospital said that the only issue was the code it used for billing. The
Hospital also said that based on guidance at the time, billing lower dosages with a multiple of the
J code was in accordance with published HCPCS codes in 2008, 2009, and 2010, and that the
OIG was applying guidance in effect subsequent to the time being reviewed. The Hospital
further said that the guidance did not specify gender-specific requirements for the Lupron J1950
code and did not specify the 3.75 mg dose was for females. According to the Hospital, the
guidance provides that the J1950 code should be used for Lupron-3 and Lupron-4, the alternative
code, J9217, did not include this level of specificity, and neither code was gender-specific. The
Hospital said it was unreasonable to hold it to a later clarification of an ambiguous code.

Office of Inspector General Response – Outpatient Billing for Lupron Injections

We agree that the medical record does not provide a basis to question the clinical practices of the
Hospital’s physicians, and we have, therefore, removed language in the report that would suggest
that Lupron was prescribed off-label. However, we maintain that the Hospital’s use of multiple
J1950 codes for 3.75mg of Lupron to bill for a single dose of 7.5mg administered to advanced
prostatic cancer patients was improper, given that code J9217 applies to 7.5mg. (Since 1989, the
FDA has approved the 7.5mg Lupron dose solely for advanced prostatic cancer, and, since 2001,

                                                 9
the FDA has approved the 3.75mg dose specifically for uterine disorders.) Therefore, we
continue to recommend the Hospital refund $390,276 related to the 160 claims in error.

Hospital Comments – Outpatient Manufacturer Credit for Replaced Medical Devices

For one of the two outpatient manufacturer credit for replaced medical device claims, the
Hospital filed a corrected claim on October 14, 2011, and, on November 7, 2011, the Medicare
contractor recouped the overpayment. For the other claim, the Hospital said that the device
depleted more quickly than normal, which resulted in it not being covered under the warranty.

Office of Inspector General Response – Outpatient Manufacturer Credit for Replaced Medical
Devices

We adjusted our report based on the Medicare contractor’s recoupment of the $13,196
overpayment. With respect to the second claim, the Hospital did not provide any documentation
from the manufacturer indicating the device was not under warranty. Therefore, we continue to
recommend the Hospital pursue the warranty credit and refund any overpayment.




                                              10
APPENDIX
                                                 Page 1 of 5


APPENDIX: SINGING RIVER HEALTH SYSTEM COMMENTS
Page 2 of 5
Page 3 of 5
Page 4 of 5
Page 5 of 5
